December 18, 2000
Audit Report No. 00-050


Audit of Real Estate Owned by the
Federal Deposit Insurance Corporation
and Its Receiverships and Subsidiaries
Federal Deposit Insurance Corporation
1201 W. Peachtree St., NE, Suite 1800                                                                    Office of Audits
Atlanta, Georgia 30309                                                                       Office of Inspector General




   DATE:            December 18, 2000

   TO:              A. J. Felton, Deputy Director
                    Division of Resolutions and Receiverships
                    Dallas Field Operations Branch


   FROM:            Carl S. Mays
                    Regional Director

   SUBJECT: Audit of Real Estate Owned by the Federal Deposit Insurance Corporation and Its
            Receiverships and Subsidiaries (Audit Report No. 00-050)

   This report presents the results of the Office of Inspector General’s (OIG) audit of real estate
   owned by the Federal Deposit Insurance Corporation (FDIC) and its receiverships and
   subsidiaries. The audit addressed whether the FDIC owns real estate assets that it has not
   recorded in its records and, therefore, may not be managing or marketing those assets. We
   performed this audit because preliminary testing in selected counties indicated a potential for
   discovering real estate assets belonging to the FDIC or its receiverships and subsidiaries that are
   not recorded in the FDIC's records.


   BACKGROUND
                                                          1
   The FDIC and the Resolution Trust Corporation (RTC) assumed responsibility for managing
   failed financial institutions and their subsidiaries, partnerships, and joint ventures. Accordingly,
   the FDIC is responsible for ensuring that all assets—corporate-owned as well as those it controls
   as receiver for failed financial institutions—are properly recorded, managed, and marketed for
   sale.

   The Division of Resolutions and Receiverships' (DRR) Dallas Field Operations Branch (DFOB)
   initiated a “discovered assets” project in February 1999. The purpose of that project was to
   identify real estate assets that county records showed that the FDIC owned in its corporate or
   receivership capacity but were not recorded in the FDIC's records. That project was undertaken,
   at least in part, because of the number of inquiries from the general public wanting to buy FDIC
   properties that were not recorded in the FDIC's records. After receiving a public inquiry


   1
    As provided in the RTC Completion Act of 1993, the RTC went out of existence on December 31, 1995, and the FDIC
   took over its functions on January 1, 1996.
concerning a property, the FDIC researches its records; performs a title search; and, if warranted,
records the asset in the FDIC's records and offers it for sale.

Although the FDIC may not be aware of some of the properties that it owns in its corporate or
receivership capacity, the Federal Deposit Insurance Act [12 U.S.C §1825 (b) (2)] protects those
properties from foreclosure or attachment by a taxing authority. However, the law does not
afford those same protections to assets owned by subsidiaries, partnerships, or joint ventures.


OBJECTIVE, SCOPE, AND METHODOLOGY

The audit objective was to determine whether the FDIC or its receiverships and subsidiaries own
real estate assets that are not recorded in the FDIC’s records. To accomplish our objective, we
used databases developed by the OIG on a previous audit of abandoned property held by state
                                2
unclaimed property agencies. Those databases included comprehensive lists of failed banks,
savings and loan associations, and subsidiaries controlled by the FDIC as receiver for those
institutions. We sorted the lists by state and financial institution number (FIN) and matched
subsidiaries with their parent institutions. We judgmentally selected eight counties in four
southeastern states and searched current county property ownership and tax records to identify
real estate owned by the FDIC or its receiverships and subsidiaries included in our databases.
Those eight counties included Montgomery in Alabama; Palm Beach in Florida; Cobb in
Georgia; and Beaufort, Charleston, Horry, Lexington, and Richland in South Carolina. We
visited each county’s public records departments and searched for property deeds to verify
ownership.

We also used the Internet to search accessible databases of delinquent taxes for all counties in
New Jersey and three counties in Florida. We then compared properties identified from county
records to the FDIC’s records on properties for sale, sold properties, and insured properties. In
addition, we provided a list of properties to the FDIC’s Division of Administration (DOA)
                                                        3
librarian in the Atlanta office to search LEXIS/NEXIS and other public record databases for
property ownership. Those databases contain deed transfer, tax assessor, and business
incorporation records.

From our total sample of 40 counties in 5 states, we identified 999 properties valued at more than
$261 million for which information databases or county tax records showed the FDIC, RTC, or
their failed institutions or subsidiaries as the current owner. However, our review of property
deeds and tax records in the eight counties that we visited, inquiries of LEXIS/NEXIS databases,
and our review of the FDIC’s real estate records determined that the FDIC had sold 723 of the
999 properties. We did not find the remaining 276 properties in the FDIC’s records. Table 1


2
Report entitled Audit of Abandoned Assets Held by States’ Unclaimed Property Agencies (audit report number
A99-038 dated August 27, 1999).
3
 LEXIS is a full-text legal services database that includes federal and state statutory, regulatory, and case law materials.
NEXIS includes a large number of national and local business journals, wire services, and newspapers, including
extensive back files, NAARS (a tax accounting database), and public records.


                                                             2
summarizes the number and value of properties by state that we initially identified as belonging
to the FDIC and those properties we determined that the FDIC had sold.

Table 1: Summary of Assets Identified as Owned and Subsequently Sold by the FDIC
                           Number of                  Value of
                           Properties                Properties         Number of               Value of
                                                                *                                            *
          State            Identified                Identified       Properties Sold        Properties Sold
    Alabama                       23             $     1,630,550                21             $ 1,566,350
    Florida                      439                  39,799,461              372                 32,508,674
    Georgia                       90                   3,855,305                88                 3,849,205
    New Jersey                   380                 210,888,492              211               148,990,942
    South Carolina                67                   5,324,787                31                 3,396,530
         Totals                  999             $261,498,595                 723              $190,311,701
*
 Value of properties based on county assessed value, sales value, or market value when given. We assigned a $0
value to some properties when no value was available.

Source: OIG analysis of real estate information from our 40-county sample and the FDIC's real estate owned records
        and LEXIS/NEXIS public records databases.



Finally, we met with DFOB personnel to determine the status of their efforts to identify real
estate assets that the FDIC owns but has not recorded in its records.

We did not evaluate the FDIC's internal controls over recording owned real estate assets because
the OIG concluded that we could meet the audit objective more efficiently by conducting
substantive tests. The OIG conducted the audit from July 1999 through July 2000 in accordance
with generally accepted government auditing standards.


RESULTS OF AUDIT

We identified 18 properties valued at about $1.9 million that the FDIC appears to own in either
its corporate or receivership capacity. However, we could not find those properties listed in the
FDIC’s records. County record databases also show that the FDIC owns 258 other properties in
the 40 counties that we reviewed. However, we did not review property deeds at the county
offices to verify ownership of those properties.

In April 2000, the FDIC discontinued its project to identify unrecorded assets that it began in
February 1999 because of the project’s limited success. However, we believe that the FDIC
should consider reinstating its discovered assets project based on the results of our audit and the
improving availability of on-line county property records that could streamline the asset search
process. The FDIC needs to record properties that it owns in its records and market those



                                                         3
properties for sale. In addition, identifying and properly disposing of those assets could limit
potential liabilities to the FDIC from not managing assets that it owns.


Properties Not Recorded in the FDIC’s Records

We verified property deeds for 18 properties valued at about $1.9 million that show the FDIC as
the current owner. Of the 18 properties we reviewed in detail, county records showed that 5 are
owned by the FDIC, 2 by the RTC, 7 by failed financial institution receiverships, and 4 by a
limited partnership of a failed financial institution. Examples of the unrecorded properties that
the FDIC appears to own are discussed below.

Wexford Plantation. Beaufort County, South Carolina, tax records show the FDIC as owner of
several lots on Hilton Head Island. On May 25, 1993, the FDIC, through a foreclosure sale,
purchased tracts I and II of Wexford on the Green—a section of Wexford Plantation—located on
Hilton Head Island, South Carolina. Those tracts included building lots for which the FDIC paid
over $1.2 million. The FDIC’s records show that it sold one lot for $49,000 on July 24, 1995.
However, if the FDIC sold any of the other lots, the FDIC’s sales database did not report the
sales. As of March 2000, Beaufort County, South Carolina, tax records showed that property
taxes on the lots were delinquent since 1995. Beaufort County had been sending the tax bills to
the FDIC in care of McNamara Associates in Atlanta, Georgia. McNamara Associates was a
property tax advisor for the FDIC whose contract with the FDIC expired on December 31, 1997.

Cheyenne Street. Charleston County, South Carolina, property records show that Cooper River
Federal Savings and Loan Association—FIN 1282—owns a property on Cheyenne Street in
North Charleston, South Carolina. According to the deed, Cooper River, which the RTC took
into receivership in June 1992, acquired the property through a court action on August 8, 1983
for the sum of $72,844. However, records that we obtained from the county tax assessor’s office
showed that the taxes were current and the county mailed the tax bill to Cooper River Federal
Savings and Loan Association, in care of citizen A (name redacted).

We contacted citizen A to determine why he was paying taxes on a property that, according to
county records, Cooper River owned. According to documents provided by citizen A, he bought
the property from Cooper River in 1984 for $64,000 and was required to make monthly loan
payments to Cooper River over a 25-year period. In addition, under the sales agreement, Cooper
River was to execute and deliver title to the property to citizen A on August 1, 1987, 3 years after
the sale. Thirteen years later, citizen A still does not have title to the property.

At some point after Cooper River failed, Midland Loan Services began servicing the loan for the
RTC. We contacted Midland Loan Services to determine who currently owns the loan.
According to Midland, State Street Bank, as trustee for the RTC, owns the loan. Accordingly,
the FDIC should determine who owns the property. If citizen A properly purchased the property,
the FDIC, as successor to the RTC and receiver for Cooper River, should provide him with a title
to the property. For its use in resolving this matter, we provided DRR with a copy of the
property deed showing that Cooper River acquired the property in 1983, the sales contract, and
citizen A’s loan payment statement from Midland Loan Services.


                                                 4
Village of Skull Creek. Beaufort County, South Carolina, tax records also showed the Village
of Skull Creek, a limited partnership of City Federal Savings and Loan Association, Birmingham,
Alabama, as owner of four properties that were not recorded in the FDIC’s records. City Federal
failed in September 1990 and became an RTC receivership. According to the Subsidiary
Information Management Network—the FDIC's system of record for subsidiaries, partnerships,
and joint ventures—the FDIC dissolved the Village of Skull Creek partnership in September
1999. Beaufort County tax records showed the owner's address as the Resolution Trust
Corporation in Atlanta, Georgia. Beaufort County mailed the 1999 tax bill for one of the Village
of Skull Creek properties to the FDIC's Atlanta office. The DRR account officer responsible for
managing the Village of Skull Creek partnership confirmed that the FDIC dissolved the
partnership in September 1999 because it was inactive. The account officer stated that he was
not aware of the Village of Skull Creek properties located in Beaufort County, South Carolina.

We obtained property deeds, descriptions, tax records, and other information for the
18 properties that the FDIC or its receiverships appear to own but do not appear in the FDIC’s
records. We provided that information (see appendix I) to DRR staff in Dallas for their review
and consideration.


FDIC EFFORTS TO IDENTIFY REAL ESTATE ASSETS

The FDIC exposes itself to potential asset losses and liability suits for properties that it does not
properly manage and insure. In February 1999, DFOB initiated a discovered assets project to
identify assets that county records show are owned by the FDIC in its corporate or receivership
capacity but are not recorded in the FDIC's records. Before DFOB initiated the project, it
operated primarily in a reactive mode in that it responded to public inquiries expressing interest
in purchasing properties that as it turned out the FDIC had not recorded in its records as owning.

Due, at least in part, to such public inquiries, DFOB began actively searching public record
databases and county real estate ownership and tax records to identify properties that belong to
the FDIC or its receiverships. DFOB focused primarily on 49 counties in Texas but also
included 2 counties in Arizona, 3 counties in California, and 9 counties in Florida. DFOB
identified 2,469 properties valued at about $134 million that public record databases showed that
the FDIC owned. After DFOB personnel searched county databases and the FDIC’s records, they
sometimes used a contractor to perform title searches for properties that appeared to belong to the
FDIC.

As of March 2000, DFOB had completed further research on 2,117 of the 2,469 properties and
found that only 39 of those properties valued at about $600,000 actually belonged to the FDIC.
The FDIC had either previously sold or already recorded the other properties in the FDIC's
records or the FDIC never owned the properties. According to a July 28, 2000 report, DRR
discontinued the project because of the low number of discovered properties in relation to the
number of properties reviewed and the resources devoted to the project.




                                                  5
If DFOB confirms the 18 unrecorded assets that we identified belong to the FDIC, we believe
that the FDIC should reconsider whether to completely abandon its discovered asset project.
Because on-line access to county property databases is improving rapidly, much of the initial
asset search can be performed in-house by FDIC personnel without incurring the cost of title
searches. Outside legal assistance to verify ownership can be reserved for only those properties
that in-house research shows are likely to belong to the FDIC or its receiverships or subsidiaries.

In addition to the lost monetary value of the 18 potential discovered assets that we identified, the
FDIC also faces potential costs when it does not properly manage properties that it owns. For
example, the value of properties that the FDIC owns, but is unaware of, can decline significantly
due to vandalism and the lack of general maintenance. To illustrate, one of the properties that we
identified in Montgomery County, Alabama, was boarded up and needed maintenance (see
figure 1).

Figure 1: Property in Montgomery County, Alabama




Source: OIG photograph.



The FDIC is potentially liable for costs to bring that property up to county standards. In addition,
the FDIC could also be liable for accidents, crimes, or other acts committed on the property.
Accordingly, the FDIC needs to assess the potential liabilities associated with properties that it




                                                 6
owns but is not managing along with the market value of those properties in relation to the cost
of identifying those properties.


CONCLUSIONS AND RECOMMENDATIONS

We identified 18 properties valued at about $1.9 million that the FDIC appears to own in either
its corporate or receivership capacity but are not recorded in the FDIC’s records. In addition, we
identified 258 other properties that according to county property databases belong to the FDIC or
its receiverships. Accordingly, the FDIC may not be managing or marketing any of those
properties that it owns. Although the results of DFOB's project to discover FDIC-owned assets
met with limited success, discontinuing the project based solely on the project cost versus the
value of the discovered assets may not be justified. Not identifying FDIC-owned assets could
expose the Corporation not only to the loss of the value of the asset but also to potential
liabilities. Accordingly, the OIG recommends that the Deputy Director, DRR, DFOB, take the
following actions:

     (1) Confirm whether the 18 properties valued at about $1.9 million (funds put to better use)
         that we identified are owned by the FDIC. As appropriate, DRR should add those
         assets to the FDIC’s owned real estate inventory and manage and market them.

     (2) If the Cheyenne Street property in Charleston County, South Carolina (property
         number 15 in appendix I) was sold, execute and deliver title to the property to the
         purchaser.

     (3) Conduct in-house research on the 258 properties that we identified through
         LEXIS/NEXIS and county databases that may belong to the FDIC or its receiverships.
         As warranted, conduct more detailed research to confirm ownership of those properties
         that the FDIC appears to own.

     (4) Consider reinstating DRR’s discovered assets project based on the results obtained
         from recommendations (1) and (3), the improved availability of on-line databases
         needed to search county property and tax records, and a cost/benefit analysis of the
         resources needed versus the value of discovered assets plus the potential liabilities to
         the FDIC from not identifying and managing properties that it owns.


CORPORATION COMMENTS AND OIG EVALUATION

On December 1, 2000, the Deputy Director, DRR, DFOB, provided a written response to a draft
of this report. The Deputy Director’s response agreed with the recommendations and provided
the requisites for a management decision on each of the four recommendations. We did not
summarize the Deputy Director’s response because the actions planned or completed are the
same as those recommended. Appendix II to this report presents the Director’s response.




                                                 7
Appendix III presents management’s proposed actions on our recommendations and shows that
there is a management decision for each recommendation in this report. Based on the audit
work, the OIG will report funds put to better use of $1,905,547 in its Semiannual Report to the
Congress.




                                                8
                                                                                                                        APPENDIX I

                                                      POTENTIAL DISCOVERED ASSETS
  No.                 FDIC Ownership Capacity                              Property Description          County/State       Value
    1   RTC                                                     327 Shelly Lane                        Montgomery, AL   $    24,200
    2   RTC                                                     5156 Levenson Road                     Montgomery, AL        40,000
    3   First American Bank & Trust (Receivership)              4169 Herbertz                          Palm Beach, FL       347,772
    4   Centrust Savings Bank (Receivership)                    470 Executive Center Drive             Palm Beach, FL        27,400
                                                                      th
    5   City Federal Savings Bank (Receivership)                624 12 Avenue                          Palm Beach, FL       136,712
    6   RTC as receiver for American Pioneer Federal Savings    1153 Avenue H                          Palm Beach, FL        10,313
    7   RTC as receiver for Oak Tree Federal Savings            Palm Beach Polo Village                Palm Beach, FL          500
    8   First Community Bank of Cherokee (Receivership)         Loring Drive NW, Lot #144              Cobb, GA               1,100
    9   FDIC, c/o McNamara Associates                           Master Wexford on the Green, 7.42 acres Beaufort, SC        565,250
   10   FDIC, c/o McNamara Associates                           Master Wexford on the Green, 2.47 acres Beaufort, SC        637,500
   11   Village of Skull Creek, c/o RTC (Limited Partnership)   Village of Skull Creek #61A            Beaufort, SC           1,000
   12   Village of Skull Creek, c/o RTC (Limited Partnership)   Village of Skull Creek #64             Beaufort, SC     Unavailable
   13   Village of Skull Creek, c/o RTC (Limited Partnership)   Village of Skull Creek #64D            Beaufort, SC     Unavailable
   14   Village of Skull Creek, c/o RTC (Limited Partnership)   Village of Skull Creek #94             Beaufort, SC     Unavailable
   15   Cooper River Federal Savings & Loan (Receivership)      Cheyenne Street, Lots 23-26 & 28       Charleston, SC        85,200
   16   FDIC                                                    Garland Street                         Richland, SC          15,000
   17   FDIC                                                    Deer Ridge Drive, Lot #17              Richland, SC           6,800
   18   FDIC                                                    Deer Ridge Drive, Lot #18              Richland, SC           6,800
   Total                                                                                                                $1,905,547
Source: OIG review of property deeds at county offices.



                                                                      9
                                                                                                 APPENDIX II




                 FDIC
                 Dallas Field Operations Branch
                 1910 Pacific Ave.
                 Dallas, Texas 75201                               (972) 761-8290   fax: (972) 761-8292



DATE                     November 27, 2000

MEMORANDUM TO: Carl S. Mays, Director
               Office of Inspector General


FROM:                    A. J. Felton, Deputy Director
                         Division of Resolutions and Receiverships
                         Dallas Field Operations Branch


SUBJECT:                 Response to OIG Draft Report of Audit of Real Estate Owned
                         By the Federal Deposit Insurance Corporation and Its
                         Receiverships and Subsidiaries

In the Office of Inspector General above audit, dated November 2, 2000 to A.J. Felton, it
was suggested in the Conclusions and Recommendations that:

   (1) Confirm whether the 18 properties valued at about $1.9 Million (funds put to better
       use) that we identified are owned by the FDIC. As Appropriate, DRR should add
       those assets to the FDIC's owned real estate inventory and mange and market them.

RESPONSE: In a telephone conference on October 13, 2000, with the OIG/Atlanta and
Washington DRR office representatives, it was agreed that the Dallas Owned Real Estate
Department would research the 18 properties for ownership. The ORE Department ordered
title commitments from independent title companies on all 18 properties which should have
the ownership questions answered by the Corrective Action Date deadline of March 31,
2001.

   (2) If the Cheyenne Street property in Charleston County, South Carolina (property
       number 15 in appendix I) was sold, execute and deliver title to the property to the
       purchaser.

 RESPONSE: This property is one of the 18 properties identified in the number one
recommendation. A deed search has been ordered as noted above. A search of the fin,
(1282) for the property address of Cheyenne Street in Charleston County, South Carolina,
does not show the FDIC/RTC as ever owning an asset by that name. The deed search will
clear up this issue and will be reported by the Corrective Action Date of March 31, 2001.

   (3) Conduct in-house research on the 258 properties that we identified through
       LEXIS/NEXIS and county databases that may belong to the FDIC or its receiverships.
       As warranted, conduct more detailed research to confirm ownership of those properties
       which FDIC appears to own.



                                              10
RESPONSE:The Dallas ORE Department with assistance from DRR Customer Service will
conduct an in house detailed research for ownership of the 258 properties. If any of the subject
properties prove to be owned by the FDIC, appropriate action by the ORE Department will be
taken.

 (4) Consider reinstating DRR's discovered assets project based on the results obtained
    from recommendations (1) and (3), the improved availability of on-line databases
    needed to search county property and tax records, and a cost/benefit analysis of the
    resources needed versus the value of discovered assets plus the potential liabilities to
    the FDIC from not identifying and managing properties that it own.

RESPONSE: The Dallas ORE and DRR Washington explored the continuing research of
county tax records through out the United States, i.e.: the Discovered Assets Program. It
was found that the cost and benefits obtained did not warrant any future pursuit on a
comprehensive basis. Over 2,400 tax records were researched during 1999 from online
taxing jurisdictions in four states and 62 counties. The results demonstrated that over 98%
of the tax records were in error. And only 1.5% of the records involved properties where
FDIC, RTC or FSCLIC was the current owner. A memorandum on these findings was sent
to the Washington DRR office which has concurred to restricting any further pursuit of the
program. If circumstances warrant, management will revisit the Discovered Assets Program
for possible continuance.




cc:   Gail Patelunas, DRR Washington
      John Recchia Internal Review Washington
      Thomas J. O'Keefe DRR Dallas
      Rick Hoffman, Internal Review Dallas
      Mike Lamb, Internal Review Dallas
      Richard, H. Fischman, DRR Washington
      Dean R. Eisenberg DRR Washington
      Douglas Woodward, DRR Dallas
      Art Miller, DRR Dallas




                                             11
                                                                                                                      APPENDIX III

                                      MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report on the status of management decisions on its
recommendations in its semiannual reports to the Congress. To consider the FDIC’s responses as management decisions in
accordance with the act and related guidance, several conditions are necessary. First, the response must describe for each
recommendation

     •   the specific corrective actions already taken, if applicable;

     •   corrective actions to be taken together with the expected completion dates for their implementation; and

     •   documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and
the reasons for any disagreement. In the case of questioned costs, the amount that the FDIC plans to disallow must be included in
management’s response.

If management does not agree that it should implement a recommendation, it must describe why it does not consider the
recommendation valid.

Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the
documentation confirming completion of corrective actions are responsive to its recommendations.

This table presents management’s responses on recommendations in our report and the status of management decisions. The OIG
based the information for management decisions on management's written response to our report.




                                                                         12
                                                                       Expected Documentation That           Management
 Rec.                                                                 Completion Will Confirm Final Monetary  Decision:
Number       Corrective Action: Taken or Planned / Status                Date          Action       Benefits  Yes or No
  1      The Deputy Director, DRR, DFOB, agreed with the               01/31/01   Title commitments.      $1.9 million   Yes
         recommendation and stated that the DFOB would                                                    funds put to
         research ownership of and had ordered title                                                       better use
         commitments from independent title companies on all
         18 properties.
  2      The Deputy Director, DRR, DFOB, agreed with the               01/31/01   Property deed.           Unknown       Yes
         recommendation and stated that DFOB has ordered a
         deed search, which will clear up the ownership issue.
  3      The Deputy Director, DRR, DFOB, agreed with the               06/30/01   Research results and     Unknown       Yes
         recommendation and stated that the DFOB will conduct                     title commitments as
         in-house research to determine ownership of the                          appropriate.
         258 properties and take appropriate action on any of the
         properties owned by the FDIC.
  4      The Deputy Director, DRR, DFOB, agreed with the               06/30/01   Management decision      Unknown       Yes
         recommendation and stated that if circumstances warrant                  based on outcome of
         management will revisit the discovered assets program                    corrective actions on
         for possible continuance.                                                recommendations 1
                                                                                  and 3.




                                                                 13
